Exhibit A

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

941 F.3d 1116
United States Court of Appeals, Eleventh Circuit.
Carol WILDING, Stanley Rifken, Sharon Crawford,
William Scott Franz, David Pulaski, Mary Jasmine
Welch, Jose Alberto Gonzalez, Jane Ellen Plattnxer,
Kim Marie Houle, et al., Plaintiffs - Appellants,
v.
DNC SERVICES CORPORATION, Deborah
Wasserman Schultz, Defendants - Appellees.
No. 17-14194
|
October 28, 2019
Synopsis
Background: Donors to Democratic National Committee
(DNC), donors to defeated candidate's presidential campaign,
and voters affiliated with Democratic Party in various states
brought putative class action against DNC and its former
chairwoman, alleging that during Democratic presidential
primaries defendants improperly tipped scales in favor of
successful party candidate, and asserting claims for fraud,
negligent misrepresentation, violations of the District of
Columbia Consumer Protection Procedures Act (CPPA), and
unjust enrichment. The United States District Court for
the Southern District of Florida, No. 0:16-cv-61511-WJZ,
William J. Zloch, Senior District Judge, 2017 WL 6345492,
dismissed plaintiffs' claims for lack of standing, and they
appealed.

Holdings: The Court of Appeals, Jordan, Circuit Judge, held
that:
DNC donors and defeated candidate's donors alleged injury
in fact sufficient to establish Article III standing;
DNC donors sufficiently pled causation; but
defeated candidate's donors failed to allege injuries fairly
traceable to defendants' allegedly false statements;
DNC donors sufficiently pled redressability;
DNC donors failed to allege fraud with requisite particularity,
as required to state claims for fraud and negligent
misrepresentation;

DNC donors failed to state claim for violation of CPPA; and
DNC donors failed to state claim for unjust enrichment.
Affirmed.
Attorneys and Law Firms
*1121 Elizabeth Lee Beck, Jared Harrison Beck, Beverly
Virues, Beck & Lee, PA, Miami, FL, Cullin A. O'Brien, Cullin
O'Brien Law, PA, Fort Lauderdale, FL, Antonio Gabriel
Hernandez, Antonio G. Hernandez, PA, Miami, FL, for
Plaintiffs-Appellants.
Marc Erik Elias, Bruce V. Spiva, Graham Mead Wilson,
Elisabeth Frost, Perkins Coie, LLP, Washington, DC, Mark
R. Caramanica, Gregg Darrow Thomas, Thomas & LoCicero,
PL, Tampa, FL, for Defendants-Appellees.
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 0:16-cv-61511-WJZ.
Before JORDAN, GRANT and HULL, Circuit Judges.
Opinion
JORDAN, Circuit Judge:
In his classic treatise on the United States and its political
system, Alexis de Tocqueville famously remarked that
“[t]here is almost no political question in the United States
that is not resolved sooner or later into a judicial question.”
Alexis de Tocqueville, Democracy in America, Vol. I, at
257 (U. Chicago Press 2000) [1835]. This case, which pits
a political party against some of its supporters, confirms de
Tocqueville’s reputation as an astute observer of American
life.
The plaintiffs in this putative class action are donors to
the Democratic National Committee, donors to the 2016
presidential campaign of Senator Bernie Sanders, and voters
affiliated with the Democratic Party in various states.
The defendants are the DNC and its former chairwoman
(and current U.S. Representative) Deborah Wasserman
Schultz. The plaintiffs essentially allege that during the
2016 Democratic presidential primaries the DNC and Ms.
Wasserman Schultz improperly tipped the scales in favor
of former Secretary of State Hillary Clinton, who was

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

challenging Senator Sanders for the Democratic presidential
nomination.
In their complaint against the DNC and Ms. Wasserman
Schultz, the plaintiffs asserted a number of commonlaw and statutory claims, including fraud, negligent
misrepresentation, and unjust enrichment. *1122 The
district court dismissed all of their claims for lack of Article
III standing, see Wilding v. DNC Services Corp., 2017 WL
6345492 (S.D. Fla. 2017), and the plaintiffs appealed.
I
We set out the facts as alleged in the operative complaint, and
accept them as true for purposes of our discussion. See Wood
v. Moss, 572 U.S. 744, 755 n.5, 134 S.Ct. 2056, 188 L.Ed.2d
1039 (2014).
A
The Democratic Party charter states that its chair “shall
exercise impartiality and evenhandedness as between the
Presidential candidates and campaigns,” and is “responsible
for ensuring” that the DNC’s national officers and staff
also “maintain impartiality and evenhandedness during the
Democratic Party Presidential nominating process.” First
Amended Complaint at ¶ 159.
From September of 2015 through May of 2016, Ms.
Wasserman Schultz and Holly Shulman, the DNC’s
spokesperson, made public statements promising that the
DNC would conduct a neutral and impartial primary process.
First, on September 3, 2015, Ms. Wasserman Schultz was
quoted in a Politico article as saying that she was committed to
running a “neutral primary process.” Second, in Daily Beast
and Daily Mail Online articles appearing in September and
October of 2015, Ms. Shulman was quoted as saying that the
DNC “runs an impartial primary process[.]” Third, in May of
2016, Ms. Wasserman Schultz told CNN and the Associated
Press that she and the DNC remained neutral in the primary
process. See id. at ¶ 160(a)–(d).
B
These statements of impartiality, according to the complaint,
were false. The DNC was allegedly “biased in favor of one
candidate—[Secretary] Clinton [ ]—from the beginning and
throughout the process. The DNC devoted its considerable
resources to supporting [Secretary] Clinton above any of the
other Democratic candidates.” Id. at ¶ 161. And “[t]hrough its

public claims of being neutral and impartial, the DNC actively
concealed its bias from its own donors as well as donors to the
campaigns of [Secretary] Clinton’s rivals, including [Senator]
Sanders[.]” Id.
In June of 2016, someone using the name “Guccifer 2.0”
published a number of DNC documents on a publicly
accessible website. See id. at ¶ 165. The DNC claimed that
those documents had been obtained by Russian government
hackers who had penetrated its computer network. See
id. at ¶¶ 163–64. Among the documents was a two-page
memorandum (marked “confidential” and dated May 26,
2015) written to the DNC regarding the 2016 Republican
presidential candidates. See id. at ¶ 166. This memorandum
stated that the DNC’s goals in the coming months were to
“frame the Republican field and the eventual nominee early
and to provide a contrast between the GOP field and HRC
[Secretary Clinton].” Id. at ¶¶ 166–67. The memorandum
also suggested a strategy to “muddy the waters around ethics,
transparency, and campaign finance attacks on [Senator
Clinton].” Id. at ¶ 167. At the time this memorandum was
purportedly written, the field for the Democratic presidential
nomination included Secretary Clinton and Senator Sanders
(who had announced his candidacy in April of 2015), and
there was “widespread speculation” that a number of others
(e.g., Senator Elizabeth Warren) would soon enter the race.
Id. at ¶ 168.
This memorandum, the plaintiffs claim, was not the
only document showing the *1123 DNC’s favoritism
towards Secretary Clinton. Other documents obtained by
hackers included research apparently prepared by DNC
staff and Secretary Clinton’s campaign staff relating to
Secretary Clinton’s vulnerabilities, potential attacks, and
policy positions, as well as “opposition research on the other
Democratic candidates.” Id. at ¶ 170. In sum, the complaint
alleges that, “in spite of” the Democratic Party’s charter and
multiple public statements, the “DNC devoted its resources to
propelling [Secretary] Clinton’s candidacy ahead of all of her
rivals, even if it meant working directly against the interests
of Democratic Party members, including [Senator] Sanders’
supporters.” Id. at ¶ 171.
C
A number of the named plaintiffs made donations to the
DNC in 2015 and 2016. Some of these plaintiffs donated
money after at least some of the statements of impartiality
made by Ms. Wasserman Schultz and Ms. Shulman and
before the hacked documents were published in June of 2016.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

For example, Emma Young made donations to the DNC in
December of 2015 and January of 2016, and Phyllis Criddle
made donations to the DNC in May of 2016. See id. at ¶¶ 105,
109. All of the plaintiffs who donated money to the DNC or
the Sanders campaign expressly alleged that they relied on the
defendants’ false statements and omissions “to their injury.”
Id. at ¶¶ 188, 195.
Senator Sanders endorsed Secretary Clinton as the
Democratic Party’s presidential nominee on July 12, 2016.
This allegation is not in the complaint, but we take judicial
notice of this undisputed historical and political fact under
Federal Rule of Evidence 201(b) (providing that a court
“may judicially notice a fact that is not subject to reasonable
debate”). See Shahar v. Bowers, 120 F.3d 211, 214 (11th Cir.
1997) (en banc) (explaining that a court can judicially notice
“matters of political history, such as who was president in
1958”).
D
The plaintiffs filed suit against the DNC and Ms. Wasserman
Schultz, invoking jurisdiction under the Class Action Fairness
Act, 28 U.S.C. § 1332(d). They asserted six state-law claims
on behalf of three proposed classes: donors to the DNC
(the DNC donor class); donors to the Sanders campaign (the
Sanders donor class); and voters who registered as Democrats
(the Democratic voter class). Both of the proposed donor
classes alleged fraud (Count I), negligent misrepresentation
(Count II), and violations of the District of Columbia
Consumer Protection Procedures Act (CPPA), D.C. Code §
28-3904, which prohibits various unfair or deceptive trade
practices (Count III). The proposed DNC donor class also
alleged unjust enrichment (Count IV) and negligence (Count
VI), the latter based on the DNC’s alleged failure to provide
donors with a secure computer system and network for the
storing of their personal and financial information. And the
proposed voter class separately alleged breach of fiduciary
duty (Count V). The plaintiffs sought various forms of relief,
including compensatory and punitive damages, attorney’s
fees and costs, and a judgment declaring illegal and enjoining
the defendants’ alleged violations of the Democratic Party
charter.
The DNC and Ms. Wasserman Schultz moved to dismiss
the claims, arguing both that the plaintiffs lacked Article III
standing and that they failed to state claims for relief. See
Fed. R. Civ. P. 12(b)(1) & (6). The district court dismissed
all six claims. It concluded that the plaintiffs had not satisfied
the injury-in-fact *1124 element of Article III standing as to

their negligence claim, the causation element as to their fraud,
negligent misrepresentation, CPPA, and unjust enrichment
claims, and the redressability element as to their fiduciary
duty claim. 1
II
We begin with the claims of the DNC donor class and the
Sanders donor class for fraud, negligent misrepresentation,
violations of the CPPA, and unjust enrichment. All of
these claims are based on the theory that the plaintiffs in
these classes were harmed financially by the allegedly false
statements concerning the DNC’s impartiality and neutrality
in the Democratic primary process. We first address standing.
A
Our review of the district court’s rulings on standing is
plenary. See Simpson v. Sanderson Farms, Inc., 744 F.3d 702,
705 (11th Cir. 2014); Bochese v. Town of Ponce Inlet, 405 F.3d
964, 975 (11th Cir. 2005). As explained below, we conclude
that some of the named plaintiffs representing the DNC donor
class have adequately alleged standing, but that no named
plaintiffs representing the Sanders donor class have done so.
Article III of the Constitution limits the jurisdiction of federal
courts to “cases” and “controversies,” and “[s]tanding to sue
is a doctrine rooted in the traditional understanding of a case
or controversy.” Spokeo, Inc. v. Robins, ––– U.S. ––––, 136
S. Ct. 1540, 1547, 194 L.Ed.2d 635 (2016) (quotation marks
omitted). To have standing, plaintiffs must therefore establish
that they “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial decision.”
Id.
The three elements of Article III standing—injury, causation,
and redressability—must be supported “with the manner and
degree of evidence required at the successive stages of the
litigation.” Lujan v. Defenders of Wildlife, 504 U.S. 555,
561, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992). See also 31
Foster Children v. Bush, 329 F.3d 1255, 1263 (11th Cir. 2003)
(“How much evidence is necessary to satisfy [the standing
requirement] depends on the stage of litigation at which the
standing challenge is made.”). At the “pleading stage, general
factual allegations of injury resulting from the defendant’s
conduct may suffice, for on a motion to dismiss we ‘presum[e]
that general allegations embrace those specific facts that are
necessary to support the claim.’ ” Bennett v. Spear, 520 U.S.
154, 168, 117 S.Ct. 1154, 137 L.Ed.2d 281 (1997) (citation

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

omitted). See also Moody v. Warden, 887 F.3d 1281, 1286
(11th Cir. 2018).
“At least one plaintiff must have standing to seek each form
of relief requested in the complaint.” Town of Chester v.
Laroe Estates, Inc., ––– U.S. ––––, 137 S. Ct. 1645, 1651,
198 L.Ed.2d 64 (2017). See also id. at 1650 (standing must
exist “for each claim and ... for each form of relief that is
sought”). Where, as here, the plaintiffs seek to proceed as a
class, only one named plaintiff for each proposed class needs
to have standing for a particular claim to advance. In other
words, if “we have at least one individual plaintiff who has
demonstrated standing,” we do not *1125 need to “consider
whether the other ... plaintiffs have standing to maintain the
suit.” Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S.
252, 264 & n.9, 97 S.Ct. 555, 50 L.Ed.2d 450 (1977). See
also Griffin v. Dugger, 823 F.2d 1476, 1483 (11th Cir. 1987)
(explaining that “a claim can[ ] be asserted on behalf of a class
[if] at least one named plaintiff” has standing).
The plaintiffs, as noted, are asserting only state-law claims.
But we have held that Article III’s standing requirements
apply to state-law claims brought in federal court. See
Nicklaw v. Citimortgage, Inc., 839 F.3d 998, 1002–03 (11th
Cir. 2016) (holding that the plaintiff lacked standing to assert
claims under New York law because he did not allege that
he sustained a concrete injury). Accord Hagy v. Demers &
Adams, 882 F.3d 616, 624 (6th Cir. 2016); Miller v. Redwood
Toxicology Lab., Inc., 688 F.3d 928, 933–35 (8th Cir. 2012);
Cantrell v. City of Long Beach, 241 F.3d 674, 683–84 (9th Cir.
2001); 13B Charles A. Wright, Arthur R. Miller, & Edward
H. Cooper, Federal Practice and Procedure § 3531.14, at 298
(3d ed. 2019 supp.); 15 Moore’s Federal Practice § 101.33, at
101-36.5 (3d ed. 2019). So the plaintiffs must satisfy Article
III with respect to their claims.
B
At least some of the named plaintiffs representing the
DNC donor class and the Sanders donor class have
sufficiently alleged injury-in-fact for their fraud, negligent
misrepresentation, CPPA, and unjust enrichment claims. The
named plaintiffs for the DNC donor class plaintiffs and the
Sanders donor class allege that they suffered a financial
loss resulting from their donations to the DNC and to the
Sanders campaign. See First Amended Complaint at ¶¶ 2–
109, 176–77. Such economic harm is a well-established
injury for purposes of Article III standing. See, e.g., Chevron
Corp. v. Donziger, 833 F.3d 74, 120 (2d Cir. 2016) (“Any
monetary loss suffered by the plaintiff satisfies the injury-in-

fact element.”). The alleged economic injury is also concrete
and particularized, see Lujan, 504 U.S. at 560, 112 S.Ct. 2130,
because all named plaintiffs for the DNC donor class and
the Sanders donor class alleged that they donated a specific
amount of money and suffered a corresponding loss. Indeed,
the complaint lists the precise dollar amount of each named
plaintiff’s donation(s). See Sweigert v. Perez, 334 F. Supp. 3d
36, 42 (D.D.C. 2018) (holding, in a similar case against the
DNC and some of its officials, that the plaintiff’s “alleged loss
of $30 [made as a donation to the Sanders campaign] is indeed
sufficiently concrete, particularized, and actual to satisfy the
injury-in-fact requirement of standing”).
Causation is next. To satisfy Article III’s causation
requirement, the named plaintiffs must allege that their
injuries are “connect[ed] with the conduct of which [they]
complain.” Trump v. Hawai’i, ––– U.S. ––––, 138 S. Ct.
2392, 2416, 201 L.Ed.2d 775 (2018). See also Duke Power
Co. v. Envtl. Study Grp., 438 U.S. 59, 75 n.20, 98 S.Ct.
2620, 57 L.Ed.2d 595 (1978) (explaining that Article III
standing “require[s] no more than a showing that there
is a substantial likelihood” of causation) (quotation marks
omitted). Significantly, “[p]roximate causation is not a
requirement of Article III standing, which requires only that
the plaintiff’s injury be fairly traceable to the defendant’s
conduct.” Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118, 134 n.6, 134 S.Ct. 1377, 188 L.Ed.2d 392
(2014). “[E]ven harms that flow indirectly from the action in
question can be said to be ‘fairly traceable’ to that action for
standing purposes.” *1126 Focus on the Family v. Pinellas
Suncoast Transit Auth., 344 F.3d 1263, 1273 (11th Cir. 2003).
A plaintiff therefore need not show (or, as here, allege) that
“the defendant’s actions are the very last step in the chain of
causation.” Bennett, 520 U.S. at 168–69, 117 S.Ct. 1154. See
also Moody, 887 F.3d at 1285 (explaining that we “must not
confuse weakness on the merits with absence of Article III
standing”) (citation and quotation marks omitted).
The named plaintiffs for the DNC donor class sufficiently
pled causation. First, they alleged that Ms. Wasserman
Schultz and Ms. Shulman made several public (and allegedly
false) statements between September of 2015 and May of
2016 affirming that the DNC would run the Democratic
presidential primary process in an impartial way. These
statements, as set forth in the complaint, were disseminated by
prominent national media outlets. Second, some of the named
plaintiffs representing the DNC donor class (Ms. Young and
Ms. Criddle) alleged that they made direct donations to the
DNC after some of the purportedly false statements were

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

made and before the hacked documents were published. And
they expressly alleged that they relied on the false statements
to their detriment. Given these allegations, a fair inference
is that at least some of the named plaintiffs representing
the DNC donor class donated money to the DNC based
on the allegedly false statements made by Ms. Wasserman
Schultz and Ms. Shulman. See Bennett, 520 U.S. at 168,
117 S.Ct. 1154. Stated differently, “[b]ecause Article III
‘requires no more than de facto causality,’ traceability is
satisfied here.” Dept. of Commerce v. New York, ––– U.S.
––––, 139 S.Ct. 2551, 2566, 204 L.Ed.2d 978 (2019) (citation
omitted). See also Mann v. Bahi, 251 F. Supp. 3d 112, 119–
20 (D.D.C. 2017) (holding that plaintiffs had standing to
bring a CPPA claim because they alleged that the defendants
made certain misrepresentations, that they relied on those
misrepresentations, and that they suffered injury in the form
of sub-par nursing services).
The same cannot be said for the named plaintiffs representing
the Sanders donor class. The critical question is whether
the plaintiffs’ injuries are fairly traceable to the defendants’
allegedly false statements, and on that question there are
just too many unknowns. Although they too alleged that
they relied on the false statements to their detriment, not a
single named plaintiff who contributed money to the Sanders
campaign set out the dates (exact or approximate) of his or
her donations. We do not know why the complaint omits the
dates of all donations to the Sanders campaign, but the silence
makes it impossible to know whether any named plaintiffs
representing the Sanders donor class made their donations
before or after the false statements were made, or before
or after the publication of the hacked documents in June of
2016, or before or after Senator Sanders endorsed Secretary
Clinton in July of 2016. These details matter. If, for example,
those who donated money to the Sanders campaign did so
before the false statements were made, the statements could
not have caused them financial injury. See Sweigert, 334 F.
Supp. 3d at 43 (explaining in a similar case that causation
was not adequately pled because the complaint was devoid
of allegations that the plaintiff donated money in reliance on
anything the DNC or its officials said or did).
That leaves redressability for the DNC donor class with
respect to their claims. At least some of the named plaintiffs
representing the DNC donor class have satisfied that element.
To have Article III standing, a plaintiff need not demonstrate
anything “more than ... a substantial *1127 likelihood” of
redressability. Duke Power Co., 438 U.S. at 79, 98 S.Ct. 2620.
See also Made in the USA Found. v. United States, 242 F.3d

1300, 1310–11 (11th Cir. 2001) (explaining that even partial
relief suffices for redressability). The economic injuries here
consist of the monetary donations made to the DNC based
on the allegedly false statements about its impartiality during
the presidential primary process. If the plaintiffs were to
prevail on their claims, they could obtain money damages in
the form of full or partial refunds of their donations. Such
relief would sufficiently redress their alleged economic harm
for purposes of standing. See, e.g., Resnick v. AvMed, Inc.,
693 F.3d 1317, 1324 (11th Cir. 2012) (“Plaintiffs allege a
monetary injury and an award of compensatory damages
would redress that injury.”); America’s Cmty. Bankers v.
F.D.I.C., 200 F.3d 822, 828–29 (D.C. Cir. 2000) (holding,
in a suit challenging certain past FDIC bank assessments as
improper, that receiving a refund of those assessments or a
credit against future assessments would provide the plaintiffs
with redress).
III
Because of its rulings on standing, the district court did
not reach the defendants’ Rule 12(b)(6) arguments that the
claims in the complaint were substantively insufficient. The
defendants press those arguments on appeal as an alternative
basis for affirmance.
We may affirm the district court’s order of dismissal on any
ground supported by the record. See Krutzig v. Pulte Home
Corp., 602 F.3d 1231, 1234 (11th Cir. 2010). Exercising
de novo review, see Eagle Hosp. Physicians, LLC. v. SRG
Consulting, Inc., 561 F.3d 1298, 1303 (11th Cir. 2009), we
hold that the fraud, negligent misrepresentation, CPPA, and
unjust enrichment claims of the DNC donor class fail on the
merits. 2
Before addressing the claims, we confront the issue of the
applicable law. The complaint is silent on what law governs
each of the common-law claims, but in their reply brief the
plaintiffs apply Florida law to their claims for fraud, negligent
misrepresentation, and unjust enrichment. See Reply Br. for
Appellants at 18–20 (citing Florida cases). Where necessary,
we will do the same. Cf. Sun Life Assurance Co. of Can. v.
Imperial Premium Fin., LLC, 904 F.3d 1197, 1208 (11th Cir.
2018) (“Under our precedents, a party waives its opportunity
to rely on non-forum law where it fails to timely provide
—typically in its complaint or the first motion in response
when choice-of-law matters—the sources of non-forum law
on which it seeks to rely.”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

A
Plaintiffs alleging fraud must “state with particularity the
circumstances constituting fraud or mistake.” Fed. R. Civ.
P. 9(b). “Rule 9(b)’s heightened pleading standard applies to
negligent misrepresentation claims” asserted under Florida
law because such claims sound in fraud. See Lamm v.
State Street Bank & Trust, 749 F.3d 938, 951 (11th Cir.
2014). See also *1128 Souran v. Travelers Ins. Co., 982
F.2d 1497, 1511 (11th Cir. 1993) (Cox, J., concurring in
the result) (“Historically, in Florida an action for negligent
misrepresentation sounds in fraud rather than negligence.”).
“[P]ursuant to Rule 9(b), a plaintiff must allege: (1) the
precise statements, documents, or misrepresentations made;
(2) the time, place and person responsible for the statement;
(3) the content and manner in which these statements misled
[him]; and (4) what the defendants gained by the alleged
fraud.” Am. Dental Ass’n v. Cigna Corp., 605 F.3d 1283,
1291 (11th Cir. 2010) (quotation marks omitted). A bare
allegation of reliance on alleged misrepresentations, bereft of
any additional detail, will not suffice under Rule 9(b). See 5A
Charles A. Wright, Arthur R. Miller, & A. Benjamin Spencer,
Federal Practice & Procedure § 1297, at 46 (4th ed. 2018)
(“[S]imply alleg[ing] the technical elements of fraud without
providing ... underlying supporting details will not satisfy the
rule’s pleading-with-particularity requirement.”).
The named plaintiffs representing the DNC donor class have
not satisfied Rule 9(b)’s pleading requirements. Specifically,
they have failed to allege with particularity the manner in
which they relied on the defendants’ statements. For example,
they did not allege on which of the statements they relied.
See Recording of Oral Argument, Dec. 11, 2018, at 16:45–
17:00 (“We did not allege ... specific reliance on any given
statement by any of our clients.”). So, although the general
allegation of reliance is not fatal to the Article III standing of
the DNC donor class, it falls short of Rule 9(b)’s heightened
pleading standard. See, e.g., Recreational Design & Constr.,
Inc. v. Wiss, Janney, Elstner Assocs., Inc., 820 F. Supp.
2d 1293, 1303–04 (S.D. Fla. 2011) (dismissing a claim for
negligent misrepresentation because, among other things, the
allegation that the plaintiff “suffered pecuniary damages in
justifiable reliance” on the defendants’ false statements was
conclusory and lacked factual support). The claims for fraud
and negligent misrepresentation are therefore dismissed.
B

Whether a plaintiff has Article III standing is a question
distinct from whether she has a statutory cause of action. See
Lexmark, 572 U.S. at 126–28, 134 S.Ct. 1377. We conclude,
for a number of reasons, that the CPPA claim of the DNC
donor class fails the plausibility standard set out in cases like
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 556–57, 127
S.Ct. 1955, 167 L.Ed.2d 929 (2007).
As noted, the CPPA prohibits various unfair or deceptive
trade practices. See D.C. Code § 28-3904 (“It shall be a
violation of this chapter for any person to engage in an unfair
or deceptive trade practice, whether or not any consumer is
in fact misled, deceived or damaged thereby[.]”). It allows
a “consumer [to] bring an action seeking relief from the use
of a trade practice in violation of a law of the District [of
Columbia].” D.C. Code § 28-3905(k)(1)(A). A “consumer,”
in turn, is a person who “does or would purchase ... or receive
consumer goods or services.” D.C. Code § 28-3901(a)(2)(A).
See also Price v. Indep. Fed. Sav. Bank, 110 A.3d 567, 574
(D.C. 2015) (“[I]n order to obtain redress under the CPPA,
[the plaintiffs] must be ‘consumers,’ defined as ‘a person
who ... does or would purchase ... or receive consumer goods
or services.’ ”) (quoting § 28-3901(a)(2)(A)). As a result, “the
CPPA does not cover all consumer transactions, and instead
only covers trade practices arising out of consumer-merchant
*1129 relationships.” Sundberg v. TTR Realty, LLC, 109
A.3d 1123, 1129 (D.C. 2015).
The named plaintiffs representing the DNC donor class made
their donations directly to the DNC, which is a non-profit
corporation. See First Amended Complaint at ¶¶ 103–09, 153.
Because there are no allegations that any of them purchased
or received any consumer goods or services, they are not
“consumers” under the CPPA. See Silvious v. Coca-Cola Co.,
893 F. Supp. 2d 233, 236 (D.D.C. 2012) (prisoner who had
not purchased Coca-Cola was not a “consumer” under the
CPPA and could not sue the soft-drink’s manufacturer for
fraudulent labeling); Slaby v. Fairbridge, 3 F. Supp. 2d 22,
27 (D.D.C. 1998) (person whose research proposals were
rejected by a federal agency was not a “consumer” under the
CPPA because her claim did not arise out of the purchase or
receipt of consumer goods or services).
We note, as well, that the DNC is not subject to liability
under the CPPA for the conduct set out in the complaint.
As the plaintiffs alleged, the DNC is a non-profit entity, and
the CPPA limits the liability of non-profit organizations: “An
action brought ... against a non-profit organization shall not
be based on membership in such organization, membership

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

services, training or credentialing services, ... or any other
transaction, interaction, or dispute not arising from the
purchase or sale of consumer goods or services in the ordinary
course of business.” D.C. Code § 28-3905(k)(5). In the
words of the D.C. Circuit, “the available evidence suggests
that the D.C. Council acted specifically to shield non-profit
organizations from statutory liability for membership-related
disputes.” In re APA Assessment Fee Litig., 766 F.3d 39,
53 (D.C. Cir. 2014). Here the complaint frames a dispute
between the DNC and some of its supporters concerning
organizational behavior. Because there are no allegations that
the DNC acted as a merchant or sold or provided consumer
goods and services to the plaintiffs, the CPPA claim fails. 3
C
The elements of an unjust enrichment claim in Florida are
“a benefit conferred upon a defendant by the plaintiff, the
defendant’s appreciation of the benefit, and the defendant’s
acceptance and retention of the benefit under circumstances
that make it inequitable for him to retain it without paying
the value thereof.” Fla. Power Corp. v. City of Winter Park,
887 So. 2d 1237, 1241 n.4 (Fla. 2004). “In Florida, a claim
for unjust enrichment is an equitable claim based on a legal
fiction which implies a contract as a matter of law even though
the parties to such an implied contract never indicated by
deed or word that an agreement existed between them.” 14th
& Heinberg, LLC v. Terhaar & Cronley Gen. Contractors,
Inc., 43 So. 3d 877, 880 (Fla. Dist. Ct. App. 2010) (citation
omitted).
The DNC and Ms. Wasserman Schultz argue that the unjust
enrichment claim of the DNC donor class fails because the
complaint does not allege facts which imply a contract as a
matter of law, which they say is required in Florida. They
also contend that contributions to political campaigns are not
contracts, express or implied, *1130 and assert that courts
have rejected similar unjust enrichment claims. See Br. for
Appellees at 29–30 (citing IberiaBank v. Coconut 41, LLC,
984 F. Supp. 2d 1283, 1296 (M.D. Fla. 2013), aff’d, 589 F.
App'x 479 (11th Cir. 2014), and Found. for Developmentally
Disabled, Inc. v. Step By Step Early Childhood Educ. &
Therapy Ctr., 29 So. 3d 1221, 1227 (Fla. Dist. Ct. App. 2010)).
Instead of responding to these arguments, and addressing the
cases cited by the defendants, the plaintiffs merely set out
the elements of an unjust enrichment claim and say—without
any elaboration—that they have alleged these elements. See
Reply Br. for Appellants at 23–24. That conclusory assertion,

“without supporting arguments and authority,” Sapuppo v.
Allstate Floridian Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014),
is the same response that the plaintiffs submitted in the district
court, see D.E. 48 at 15, and fails to address the defendants’
arguments.
We agree with the defendants that the plaintiffs in the DNC
donor class have failed to state a claim for unjust enrichment.
Under Rule 8, a complaint must allege sufficient underlying
facts to make a claim plausible, and the mere formulaic
recitation of elements or legal conclusions will not suffice.
See, e.g., Twombly, 550 U.S. at 555–56, 127 S.Ct. 1955. And
that pleading standard applies to state-law claims litigated in
federal court. See Palm Beach Golf Center-Boca, Inc. v. John
G. Sarris, D.D.S., P.A., 781 F.3d 1245, 1259–60 (11th Cir.
2015). The unjust enrichment claim here contains no factual
allegations explaining (a) why Florida law would deem it
necessary or appropriate to imply a contract between the DNC
and those who contributed money to it, or (b) why it would
be inequitable for the DNC to retain the donations made by
the members of the DNC donor class. For example, we do
not know if the named plaintiffs in the DNC donor class gave
money to the DNC to assist with a Democratic presidential
primary they believed would be impartial, or to support
Democratic candidates running for other offices throughout
the country, or to fund projects and policies advanced by the
DNC. Why the members of the DNC donor class donated
money is, in this context, important. Had the plaintiffs in the
DNC donor class alleged that they gave money to the DNC
in order to support an impartial presidential primary, then we
would be better able to evaluate whether it is plausible that
a contract could or should be implied under Florida law, and
whether the DNC’s retention of the donations was inequitable.
Absent any allegations as to the reasons for their donations,
the plaintiffs have not made out a plausible unjust enrichment
claim under Florida law.
IV
The plaintiffs in the Democratic voter class separately alleged
a breach of fiduciary duty by the DNC and Ms. Wasserman
Schultz. As we explain, these plaintiffs have failed to allege
an injury-in-fact sufficient to confer Article III standing.
None of the plaintiffs in the Democratic voter class allege
that they made monetary contributions to the DNC. See First
Amended Complaint at ¶¶ 110–51, 178. So, unlike the claims
asserted on behalf of the DNC and Sanders donor classes,
the fiduciary duty claim does not involve an allegation of
direct (or even indirect) economic harm. Cf. Fleming v.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

Charles Schwab Corp., 878 F.3d 1146, 1151 (9th Cir. 2017)
(holding that investor’s allegation of higher execution prices
for trades established injury-in-fact for a breach of fiduciary
duty claim).
In their brief, the plaintiffs assert that “[v]iolations of common
law rights *1131 protected by the common law of torts
and restitution are sufficient for standing purposes.” Br. for
Appellants at 13 (quoting United States v. Real Property,
All Furnishings Known as Bridwell’s Grocery, 195 F.3d
819, 821 (6th Cir. 1999)). There is admittedly some support
for the notion that the mere violation of a state-law right
satisfies Article III even in the absence of an identifiable
injury. See FMC Corp. v. Boesky, 852 F.2d 981, 993 (7th
Cir. 1988) (plurality opinion: “Properly pleaded violations
of state-created rights ... must suffice to satisfy Article III’s
injury requirement.”). But our precedent is to the contrary. We
require plaintiffs asserting violations of state-created rights
to demonstrate a concrete injury; the defendant’s violation of
those rights is not enough. See Nicklaw, 839 F.3d at 1002–
03. Cf. Trustees of Upstate N.Y. Eng’rs Pension Fund v.
Ivy Asset Mgmt., 843 F.3d 561, 569 (2d Cir. 2016) (“[A]
breach of fiduciary duty under ERISA in and of itself does
not constitute an injury in fact sufficient for constitutional
standing.”) (citation omitted).
The plaintiffs in the Democratic voter class do not allege any
injury resulting from the defendants’ alleged breaches of their
fiduciary duty. The complaint says only that the plaintiffs
in the Democratic voter class were “proximately damaged”
by the alleged breaches. See First Amended Complaint at
¶ 215. Indeed, the plaintiffs conceded at oral argument that
the complaint does not specify any resulting injuries. See
Recording of Oral Argument, Dec. 11, 2018, at 2:20–2:45
(“The complaint does not, with respect to the fiduciary duty
claim, spell out the nature of the damages.”). That concession,
which confirms the complaint’s deficiencies, is fatal to the
standing of the plaintiffs in the Democratic voter class. Cf.
DiMaio v. Democratic Nat’l Comm., 520 F.3d 1299, 1302
(11th Cir. 2008) (Florida Democratic voter who claimed
that the DNC would violate his Article II and Fourteenth
Amendment rights by not seating delegates from Florida
at the Democratic National Convention failed to plead the
invasion of a legally protected right because, among other
things, he failed to allege that he had cast a ballot in the Florida
Democratic Primary). 4
When pressed at oral argument to clarify the nature of
their injuries, the plaintiffs suggested two possible ones:

a reduction in the “value” of the DNC, and harm to the
“viability” of the Democratic Party as a participant in national
politics. See Recording of Oral Argument, Dec. 11, 2018,
at 5:15–7:45. But even assuming that those injuries would
suffice, their articulation comes too late. The plaintiffs’
complaint must contain “general factual allegations of injury
resulting from the defendant[s]’ conduct,” Bennett, 520
U.S. at 168, 117 S.Ct. 1154, and that complaint cannot be
supplemented at oral argument. Where, as here, a complaint
is facially deficient, a court “lacks the power to create
jurisdiction by embellishing a deficient allegation of injury.”
Bochese, 405 F.3d at 976.
Part of the problem is caused by the complaint’s complete
failure to say anything at all about the source, nature, or scope
of the alleged fiduciary duty. Under District of Columbia
law, on which the plaintiffs rely, a fiduciary duty requires
circumstances such that a “relationship of trust may properly
be implied.” *1132 Kemp v. Eiland, 139 F. Supp. 3d 329,
343 (D.D.C. 2013). All the complaint alleges is that the DNC
and Ms. Wasserman Schultz “had a fiduciary duty” to the
plaintiffs in the Democratic voter class. See First Amended
Complaint at ¶ 213.
“Although standing in no way depends on the merits of the
plaintiffs’ contention that particular conduct is illegal, it often
turns on the nature and source of the claim alleged.” Warth
v. Seldin, 422 U.S. 490, 500, 95 S.Ct. 2197, 45 L.Ed.2d 343
(1975) (citation omitted). See 15 Moore’s Federal Practice §
101.33, at 101-36.6 (“State law may create the legal interest
in a federal case, as it often does when federal jurisdiction
is based on diversity.”). Had the plaintiffs specified in the
complaint what the alleged fiduciary duty was, or how it
came to be, then maybe it would have been possible to
determine without speculation how they were injured by the
alleged breaches. See Scanlan v. Eisenberg, 669 F.3d 838, 842
(7th Cir. 2012) (“That Scanlan must suffer an invasion of a
legally protected interest is a principle of federal law. But the
nature and extent of Scanlan’s interest as a beneficiary of a
discretionary trust, and therefore, whether that interest can
form the basis of a federal suit, depend on the law that defines
the rights of a discretionary beneficiary.”). Although chapter
and verse are not required, a blank page by definition will
usually not provide enough for a court to plausibly infer a
fiduciary relationship in this political party setting. 5
V

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Wilding v. DNC Services Corporation, 941 F.3d 1116 (2019)
28 Fla. L. Weekly Fed. C 541

In their brief, the plaintiffs argue that the district court should
have granted them leave to amend the complaint’s allegations
regarding standing. We disagree.
The plaintiffs had already amended their complaint once as
of right, and district courts are not required to sua sponte
grant counseled plaintiffs leave to amend their complaint
in the absence of a request for such relief. See Wagner v.
Daewoo Heavy Indus. Am. Corp., 314 F.3d 541, 542 (11th Cir.
2002) (en banc). The plaintiffs did not seek to amend their
complaint a second time to cure any standing or substantive
deficiencies, and they did not explain “how the complaint
could be amended to save the[ir] claim[s].” U.S. ex rel.
Atkins v. McInteer, 470 F.3d 1350, 1362 (11th Cir. 2006).
We therefore conclude that the district court did not err in
dismissing the complaint without sua sponte granting the
plaintiffs leave to file a second amended complaint.
VI
We are mindful that there are deep disagreements within
(and outside) the Democratic Party about the DNC’s alleged

conduct during the 2016 primaries. See, e.g., John Baglia,
Legal Solutions to a Political Party National Committee
Undermining U.S. Democracy, 51 John Marshall L. Rev.
107, 108–09, 118–19 (2017). But federal courts can only
adjudicate cognizable claims, and the complaint here fails
*1133 on a number of jurisdictional and substantive
grounds.
The district court’s order of dismissal is affirmed, but the
case is remanded so that the district court can amend
its order consistent with our opinion. The order should
dismiss the fraud, negligent misrepresentation, CPPA, and
unjust enrichment claims—which fail on the merits—with
prejudice, and dismiss the negligence and fiduciary duty
claims—which fail for lack of standing—without prejudice.
AFFIRMED.
All Citations
941 F.3d 1116, 28 Fla. L. Weekly Fed. C 541

Footnotes

1
2

3

4
5

The plaintiffs do not challenge the district court’s dismissal of their negligence claim for lack of Article III standing. That
claim is therefore abandoned, and we do not express any views on it. See Access Now, Inc. v. Southwest Airlines Co.,
385 F.3d 1324, 1330 (11th Cir. 2004).
The plaintiffs argue that the defendants were barred from making Rule 12(b)(6) arguments because they had earlier
filed a motion to dismiss for insufficient service of process under Rule 12(b)(5). The district court disagreed, construing
that first-in-time motion as a motion to quash service of process. We agree with the district court’s characterization of
the defendants’ motions. We therefore conclude that nothing barred the defendants from making their Rule 12(b)(6)
arguments, and nothing prevents us from considering the sufficiency of the plaintiffs’ claims.
The plaintiffs argue that the members of the Sanders donor class are “consumers” within the meaning of the CPPA
because they made their contributions to the Sanders campaign through ActBlue, a political action committee which
charges a 3.95% fee for processing services on each donation. See Reply Br. for Appellants at 22–23. We do not address
this argument because, as we have explained, the named plaintiffs representing the Sanders donor class lack Article
III standing.
Given our conclusion that the plaintiffs in the Democratic voter class did not adequately allege injury-in-fact, we need not
and do not address the redressability concerns articulated by the district court. See Wilding, 2017 WL 6345492, at *6.
In their reply brief, the plaintiffs try to provide the framework for a fiduciary duty theory under District of Columbia law.
First, the plaintiffs say they were members of the Democratic Party and donated money to the DNC and to the Sanders
campaign. Second, they reason that because of their donations, the DNC and Ms. Wasserman Schultz owed them a
“duty to ensure a fair and equitable nomination process and not to secretly conspire against Senator Sanders’ presidential
campaign.” Reply Br. for Appellants at 26. Even if we could consider this new theory, it would not change the result.
The complaint does not allege that registration in the Democratic Party, without more, imposes a fiduciary duty on the
DNC or Ms. Wasserman Schultz. And it does not allege that any of the plaintiffs in the Democratic voter class made any
monetary contributions to the DNC.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

